                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                      CLOSEOUT MEMORANDUM

11   Case Number: A04100063
                                                                                  11          Page 1 of 2



           We received a concern that a PI (the subject)' on a recent NSF proposal2 misrepresented
           information in his Current and Pending Support (CPS) form. Specifically, the subject allegedly
           misrepresented summer salary information in present as well as previous CPS forms submitted to
           N S F . ~In addition, we were informed that the subject listed an NSF award in an earlier CPS form
           that was not from NSF and failed to list an NSF award4 for which he requested and received a
           no-cost extension.

           We examined all the subject's awards for the past 5 years, comparing what was requested and
           received with what was reported on subsequent CPS forms. There were multiple instances where
           the subject provided what appeared to be incorrect summer salary information. Further, in one
           instance, the subject listed an NSF award that was not from NSF and omitted an NSF award for
           which the subject had requested a no-cost extension.

           We wrote to the subject requesting an explanation. Instead of responding to our request for
           information, the subject shared the letter with the University. The University contacted our
           office requesting that we refer our inquiry to them for review, which we did.

           The University determined that the alleged misstatements or omissions on the CPS forms were
           not within the scope of academic misconduct under its policies and procedures. Consequently, it
           addressed the allegation by an alternative administrative process and procedures. The University
           reviewed and compared the information our office provided with information it had available in
           its central grant files. It interviewed the subject and others associated with the processing and
           submission of proposals. Finally, it reviewed many other related records.

           The University's report indicated the University failed to some degree to provide appropriate




           submitted bv the subiect as the sole PI.




 NSF OIG Form 2 (1 1/02)
                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

    Case Number: A04100063                                                                  Page 2 of 2



         oversight related to information submitted by its PIS on CPS forms. The report pointed out that,
         although program officers at NSF did correct this particular matter on a couple of occasions,
         these adjustments were not made consistently, which may have reinforced the subject's belief
         that the subject's approach to summery salary requests was acceptable. The report found other
         inconsistencies with other CPS forms submitted by the subject, such as an omission of an NSF
        'award and the omission of other agencies' award^.^

        The report concluded that the subject was not thorough in completing the CPS forms in NSF
        proposals. The subject misunderstood what information was to be entered on the CPS forms,
        believing that it was appropriate to apply for more than two months of NSF summer salary,
        although the NSF budget instruction indicated otherwise. The University found no basis to
        believe that the subject's actions and misunderstandings involved intentional violations of rules
        or that these actions were designed to mislead NSF. Finally, the report noted that the instructions
        for completing the CPS form provided by NSF were somewhat ambiguous regarding what a
        commitment of summer months means. It concluded that, even if the subject had reviewed these
        materials, the subject might not have realized any error.

        The report indicated that the University has taken and should take a number of steps to help
        ensure future compliance with NSF's CPS requirements. It suggested the Sponsored Research
        Office clarifL and educate the researchers who submitted proposals to NSF, and encourage the
        departments to take a more active oversight role with respect to CPS statements and summer
        salary.

        We accepted the report as fair, thorough, and complete. As a result of this case, the University
        will take specific actions to ensure better compliance from all its PIS. We agreed that there was
        no reason to suspect the subject intentionally misrepresented information in the CPS forms, but
        rather, that the subject acted in an extremely careless fashion.

1        This case is closed and no further action will be taken.
